No.

IN THE
SUPREME COURT OF THE UNITED STATES

Bodhisattva Skandha

— PETITIONER

(Your Name)
VS.
Massachusetts Appeals Court

— RESPONDENT(S)

PROOF OF SERVICE
Bodhisattva Skandha
do swear or declare that on this date,
October 14,
202° , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Massachusetts Appeals Court c/o Joseph Stanton - Clerk
Middlesex Superior Court c/o Michael A. Sullivan

Clerk

Marian T. Ryan, District Attorney, Middlesex County
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 14

SO20

(Signature)
-29-

Proof of Service Continued:
Massachusetts Appeals Court
c/o Joseph Stanton - Clerk
1 Pemberton Sq. 1200
Boston MA 02108-1705
Middlesex Superior Court
c/o Michael A. Sullivan
200 Trade Center
Woburn, MA 01801

Clerk

Marian T. Ryan, District Attorney
15 Commonwealth Avenue
Woburn, MA 01801
Matthew Landry, Esq.
Assistant Attorney General
1 Ashburton Place
Boston, MA 02108
Gloriann s, Mbroney,, Chairperson
Mas sachuhehtfs—Parole Board
12 Mercer Road
Natick, MA 01760

-30-

